<html>
<title> - MANAGING THE DEPARTMENT OF HOMELAND SECURITY: A STATUS REPORT ON REFORM EFFORTS BY THE UNDER SECRETARY FOR MANAGEMENT</title>
<body><pre>[Senate Hearing 110-238]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-238
 
MANAGING THE DEPARTMENT OF HOMELAND SECURITY: A STATUS REPORT ON REFORM 
             EFFORTS BY THE UNDER SECRETARY FOR MANAGEMENT

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                                     
                    U.S. GOVERNMENT PRINTING OFFICE
35-533                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
             Jennifer A. Hemingway, Minority Staff Director
                      Emily Marthaler, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     5

                               WITNESSES
                         Thursday, May 10, 2007

Paul A. Schneider, Under Secretary for Management, U.S. 
  Department of Homeland Security................................     3
Hon. David M. Walker, Comptroller General, U.S. Government 
  Accountability Office..........................................     6

                     Alphabetical List of Witnesses

Schneider, Paul A.:
    Testimony....................................................     3
    Prepared statement...........................................    29
Walker, Hon. David M.:
    Testimony....................................................     6
    Prepared statement...........................................    41

                                APPENDIX

Questions and responses for the Record from:
    Mr. Schneider................................................    79
    Mr. Walker...................................................   123
Background.......................................................   129


MANAGING THE DEPARTMENT OF HOMELAND SECURITY: A STATUS REPORT ON REFORM 
             EFFORTS BY THE UNDER SECRETARY FOR MANAGEMENT

                              ----------                              


                         THURSDAY, MAY 10, 2007

                                   U.S. Senate,    
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9 a.m., in 
Room 342, Dirksen Senate Office Building, Hon. Daniel Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Good morning to all of you. I call this 
hearing of the Subcommittee on Oversight of Government 
Management, the Federal Workforce, and the District of Columbia 
to order.
    Today's hearing, ``Managing the Department of Homeland 
Security: A Status Report on Reform Efforts by the Under 
Secretary for Management,'' will examine the Department's 
management challenges, the status of development of a 
comprehensive management strategy for the Department, and 
needed improvements. It is the first hearing this Subcommittee 
has held since becoming responsible for the oversight of the 
Department's Management Directorate. Today's hearing will 
establish the baseline from which we will judge progress made 
in reforming the Department.
    Unfortunately, shortly the Indian Affairs Committee will be 
marking up my legislation, critical to Hawaii, and I will need 
to leave the hearing early, but hope to return. Senator 
Voinovich has asked me to begin and he will be here and he will 
be chairing the hearing during my absence.
    DHS has a monumental challenge, bringing together 22 
separate agencies with nearly 180,000 employees into a cohesive 
Department. The DHS Directorate for Management, led by Under 
Secretary for Management Paul Schneider, is responsible for 
ensuring the effective reorganization and management of the 
Department. He is here today with the Comptroller General at 
the Government Accountability Office, David Walker, to describe 
the progress the Department has made in organizing itself and 
the challenges that it still faces.
    Mr. Schneider's management task is vital to our national 
security. Despite the difficulty of the task, carrying out the 
successful integration of these agencies into one unified 
organization as effectively as possible is very crucial. 
Protecting the Nation against disasters, both natural and man-
made, is one of the most important functions of the Federal 
Government today.
    That is one reason that the GAO continues to place the 
transformation and integration of DHS on its annual high-risk 
list. Other factors making the reorganization high-risk include 
the preexisting challenges that many of DHS's component 
agencies faced before their reorganization and the enormous 
complexity of creating this new Department.
    I want to highlight several key problems which I hope will 
be addressed in this hearing. First, as you know, this 
Subcommittee has had a keen interest in the Department's human 
capital challenges. Recruitment, retention, and training are 
critical elements to developing a unified workforce. The 
Department faces low employee morale and deep divisions between 
labor and management. The personnel regulations issued by DHS 
severely erode employee rights and protections and they 
contribute significantly to these internal divisions. The 
Department must work with and listen to employees in order to 
develop a fair and flexible personnel system that has 
employees' buy-in.
    Second, we must focus on the Department's ongoing efforts 
to create integrated and effective systems for key management 
functions, including acquisition and procurement, financial 
management, and information technology.
    Third, the Department needs a consolidated headquarters 
building. The Department headquarters remains scattered in 
offices throughout the National Capital Region.
    And finally, underlying the entire effort to reorganize the 
Department is the Under Secretary's authority to get things 
done. This Subcommittee is concerned that the Under Secretary 
does not have sufficient statutory authority to spearhead a 
massive reorganization while at the same time overseeing the 
Department's ongoing management.
    That is why I joined with Senator Voinovich in introducing 
the Effective Homeland Security Management Act, which has also 
been cosponsored by Senators Levin, McCaskill, and Carper. The 
legislation would elevate the current Under Secretary for 
Management to a Deputy Secretary with a term appointment in 
order to promote sustained high-level focus to management and 
integration efforts at DHS.
    I know that some in DHS have some concerns about our 
proposal, but I believe that to make this Department work, it 
needs a management team that has the authority to manage. It 
has to be more than cheerleaders operating on the sidelines, 
but a quarterback calling the plays.
    My thanks to our witnesses for being here today and for 
contributing in the past up to this point as to what we can do 
to improve DHS and the conditions that we face today.
    I am expecting Senator Voinovich to come, but let me at 
this point ask the witnesses for their statements. Before that, 
as you know, we have a custom with this Subcommittee to swear 
in all witnesses, and we will do that. But I want to again 
welcome you, Paul Schneider, Under Secretary for Management, 
Department of Homeland Security, and also David Walker, 
Comptroller General of the U.S. Government Accountability 
Office. So if you will stand, we will take the oath.
    Do you swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Schneider. I do.
    Mr. Walker. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses did respond in the affirmative.
    I want our witnesses to know that while their oral 
statements are limited to 5 minutes, your entire statements 
will be included in the record.
    Mr. Schneider, will you begin and proceed with your 
statement.

    TESTIMONY OF PAUL A. SCHNEIDER,\1\ UNDER SECRETARY FOR 
        MANAGEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Schneider. Thank you, Mr. Chairman, Senator Voinovich, 
and Members of the Subcommittee. It is a pleasure to appear 
before you today for the first time as the Under Secretary for 
Management. I am here to discuss the major management and 
programmatic challenges the Department faces.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schneider appears in the Appendix 
on page 29.
---------------------------------------------------------------------------
    The most significant challenge we have is to continue the 
effort that was started with the creation of the new Department 
and turning it into a unified force that protects the country. 
DHS's size is that of a Fortune 500 company. It is the 
equivalent of an entrepreneurial start-up that has merged 22 
agencies with approximately 180,000 employees. The major 
elements of our strategy are improving acquisition and 
procurement throughout the Department; strengthening the 
requirements and investment review process; hiring and 
maintaining human capital; seeking efficiencies across the 
enterprise in operations and the use of resources; and making 
the key management systems, such as financial and information 
technology, world class.
    The Department is in the midst of many crucial acquisitions 
that are vital to the success of the Department. We are working 
to strengthen acquisition and procurement by implementing good 
processes, reviewing the major programs and investments to 
ensure that the requirements are clear, cost estimates are 
valid, technology risks are properly assessed, schedules are 
realistic, contract vehicles are proper, and the efforts are 
well managed.
    We are also--part of our strategy is building the 
capability to manage these complex efforts by ensuring that the 
program offices are properly structured and staffed with the 
right people and skills to ensure efficient and effective 
program management and oversight, aggressively hiring where we 
have known shortages and implementing good metrics. We have a 
shortage of people who are experienced in program management, 
not just contracting. This includes the related disciplines 
such as acquisition logistics, cost estimating, test and 
evaluation, and the like.
    In response, we have initiated aggressive staffing 
solutions to address these personnel shortages. As part of the 
President's fiscal year 2008 budget, we plan to initiate our 
Acquisition Intern Program. We will start with 66 new entry-
level positions and grow to 200 by fiscal year 2010. This 
program is modeled after highly successful DOD programs.
    The Department did very poorly in the OPM Federal Human 
Capital Survey. Leadership teams across the Department are 
committed to identifying the underlying reasons for DHS 
employees' dissatisfaction and we are seeking ways to address 
them quickly. As an initial step toward improving employee 
satisfaction at headquarters and within all of the operating 
components, we are working to better communicate throughout the 
workforce, emphasize performance management training at the 
supervisor and employee level, and improve the recognition of 
good performance.
    A performance-based management system compensates and 
rewards employees based on their performance and contribution 
to the achievement of the Department's mission. Based on the 
results of the OPM survey, this is the area that is critical 
and that we need to focus on first. It will foster an 
environment of open communication and feedback between the 
supervisor and the employee and reward more productive and 
harder-working employees.
    The Department has many substantial challenges to overcome 
in its effort to improve its financial management processes and 
address GAO's expectations. Success in these areas rests on a 
framework of policy, processes, systems, and accountability. We 
have implemented a corrective action plan that includes the 
Federal Government's best practices for financial management. 
We have also developed a strategy to migrate and reduce the 
number of our financial management systems across the 
Department and to incrementally start providing greater 
visibility into financial activity through timely, accurate, 
and useful financial data.
    In my early assessment of the Office of Management, I 
recognized that our Chief Information Officer did not have the 
requisite authority over each of the DHS IT components and that 
the documented concerns of the GAO with respect to authority of 
the business chiefs was valid in the case of the Chief 
Information Officer. The Secretary agreed with my assessment 
and shortly thereafter issued a management directive to provide 
the CIO with such authority.
    The Department also needs to reduce the total number of 
locations that house DHS components in the National Capital 
Region to as few as possible in order to lower overall costs. 
This dispersal adversely impacts critical communications, 
coordination, and cooperation across the Department. 
Consolidating executive leadership in a secure setting is vital 
to the long-term success of the Department.
    In conclusion, Secretary Chertoff has expressed that one of 
his key goals for the Department is to strengthen core 
management and operational integration. This process is a 
marathon and not a sprint.
    I want to thank you for your leadership and continued 
support of the Department and its management programs and for 
the opportunity for me to be here today. I would be pleased to 
respond to any questions that you may have.
    Senator Akaka. Thank you very much, Mr. Schneider.
    Before I call on General Walker for his statement, let me 
now turn to my good friend, Senator Voinovich, for his opening 
statement.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator Akaka. I apologize 
for being late and I am going to ask that my opening statement 
be inserted in the record so that we can hear from General 
Walker and get on with the questions. Thank you.
    [The prepared statement of Senator Voinovich follows:]

                PREPARED STATEMENT OF SENATOR VOINOVICH

    Thank you, Chairman Akaka, for holding this important hearing.
    With the Department of Homeland Security still in its formative 
years, it is critical that Congress closely monitor its transformation. 
We have a responsibility to ensure the Department is living up to its 
full potential and is operating as we intended.
    It bears repeating that the Homeland Security Act of 2002 initiated 
the Federal Government's largest restructuring since the creation of 
the Department of Defense in 1947. While carrying out its critical 
mission of securing the Nation from terrorism and natural hazards, the 
leadership of DHS must also contend with the major organizational, 
operational, and cultural issues associated with large mergers.
    It is indeed a challenge to unify more than 200,000 employees from 
22 different Federal agencies and programs into one cohesive 
Department. This monumental task is further complicated by the urgent 
demand for new policies, solutions, and investments in areas which the 
Federal Government has not traditionally addressed. Additionally, the 
response and recovery effort from the unprecedented and overwhelming 
devastation of Hurricane Katrina has required much of the Department's 
focus over the past year and one half.
    I am frustrated, but not surprised, that in its fifth year the 
Department continues to experience severe growing pains. Weaknesses 
persist across the core management functions of human capital, 
financial management, procurement and acquisition, and information 
technology. The Department also continues to experience an array of 
programmatic challenges as it attempts to secure borders and ports of 
entry, prepare for and respond to disasters, protect critical 
infrastructure, and improve risk analysis and information sharing.
    I thank both of our witnesses for being here today. It is important 
that we have a frank discussion about the challenges facing DHS so that 
we can establish a baseline and a roadmap with clear performance 
metrics that will allow us to determine whether progress is being made.
    Mr. Schneider, though you do not serve on the frontline, your job 
is critical to improving our Nation's homeland security. You are 
charged with tackling the formidable management challenges at the 
Department of Homeland Security and institutionalizing long-term 
reforms that will last well beyond your tenure. In your fourth month on 
the job, I am eager to hear your assessment of the challenges, and your 
near-term and long-term strategic plans for transformation.
    As you work to achieve reform, Comptroller General Walker will be 
an important resource. Since 2003, the GAO has included implementing 
and transforming the Department of Homeland Security on its high-risk 
list of programs susceptible to waste, fraud, abuse, and mismanagement. 
In announcing its 2007 high-risk list, Comptroller General Walker 
stated, ``The array of management and programmatic challenges continues 
to limit DHS's ability to carry out its roles under the National 
Homeland Security Strategy in an effective risk-based way.''
    Mr. Schneider, I strongly encourage you to consider the GAO's 
recommendations for improvements as you proceed. I look forward to 
learning which recommendations you have already implemented.
    Strengthening the management focus at DHS remains one of my top 
priorities as Ranking Member of this Subcommittee. During my long 
career in public service, including as a Mayor and Governor, I have 
repeatedly observed that the path to organizational success lies in 
adopting best practices in management, including strategic planning, 
performance and accountability measures, and effectively leveraging 
human capital.
    I fully appreciate that DHS is constantly busy ``putting out 
fires.'' But the connection between good management and operational 
success should not be lost. Unless DHS institutes day-to-day management 
best practices, the Department will not reach its full potential in 
meeting its homeland security mission.
    It has become clear to me that the existing Under Secretary for 
Management position does not possess the visibility or authority to 
affect department-wide changes needed for successful transformation of 
DHS. To address this deficiency, I introduced the Effective Homeland 
Security Management Act of 2007, along with my friends Senators Akaka, 
Carper, Levin, and McCaskill.
    The legislation would elevate the role and responsibilities of the 
current Under Secretary for Management of the Department to a Deputy 
Secretary of Homeland Security for Management. The incumbent would be 
appointed to a 5-year term and report directly to the Secretary in 
order to provide essential expertise, including continuity and 
sustained leadership, necessary for improving the long-term efficiency 
and effectiveness of the Department. Mr. Schneider, we want to promote 
you.
    This legislation has passed the Senate as part of the Improving 
America's Security Act of 2007, and awaits the approval of our friends 
in the House of Representatives. I am confident they will agree that 
Department needs a stronger management focus to enable programmatic and 
operational success.
    Mr. Walker, I understand that you recently hosted a forum of 
government and private sector leaders to discuss implementing Chief 
Management Officer positions. I thank you for your continued attention 
to the need to elevate and institutionalize a high level focus on 
management at Federal agencies.
    While the Department faces considerable hurdles as it matures, I am 
also mindful that progress has been made. There are many capable and 
dedicated individuals at DHS who deserve recognition. With a firm 
understanding of mission and priorities, comprehensive corrective 
action plans, and a detailed strategy on how to achieve defined goals, 
I am optimistic that the Department can continue making strides.
    Having served on this Subcommittee since the creation of DHS, I 
feel a personal responsibility to ensure the success of the Department. 
I will continue to closely monitor progress.
    I look forward to the witnesses' testimony. Thank you, Mr. 
Chairman.

TESTIMONY OF HON. DAVID M. WALKER,\1\ COMPTROLLER GENERAL, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Walker. Chairman Akaka, Senator Voinovich, Members of 
the Subcommittee, it is a pleasure to be here. As I said, I am 
looking forward to my vacation in your lovely State, Senator 
Akaka, in August, and I have been to your lovely State within 
the last month or so, Senator Voinovich. But today, I am here 
to talk about management and programmatic challenges at the 
Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walker appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    Let me note at the outset that I think that it is more than 
a little bit ironic that arguably the two agencies with the 
greatest management challenges in the Federal Government are 
the two that relate to the most fundamental aspect of man's 
hierarchy of needs, namely self-preservation, and the two that 
are arguably among the most fundamental with regard to the 
roles and responsibilities of the Federal Government under the 
Constitution of the United States, namely the Department of 
Defense and the Department of Homeland Security. These are 
major challenges that are well represented on GAO's high-risk 
list and they are challenging endeavors.
    As you know, we put DHS's implementation and transformation 
effort on our high-risk list in 2003. It remains on our high-
risk list in 2007 for a number of reasons. Twenty-two separate 
agencies were merged into one, many of which had serious 
problems on their own, most of which their primary mission was 
not homeland security before September 11, 2001, and as the 
Under Secretary has mentioned, it is a major challenge that 
will take years in order to be able to effectively address.
    DHS's implementation and transformation effort remains on 
our high-risk list for a number of reasons, a few I will 
mention now since my entire statement has been included in the 
record. While DHS has issued guidance and plans to assist 
management in its overall integration on a function-by-function 
basis, they still lack a comprehensive and integrated strategy 
to make this happen and they still lack a plan to get off of 
GAO's high-risk list.
    DHS does have a pretty good strategic plan relating to the 
GPRA requirement, the Government Performance and Results Act. 
It covers five of six of the required elements under GPRA. 
However, when they developed that plan, in our view, they did 
not have as extensive a consultation process with key 
stakeholders as should have been the case, and therefore, 
hopefully when they update it, they will modify that process.
    They have yet to develop outcome-based measures to assess 
performance, but in fairness, there are many government 
agencies that have not done the same.
    While the Secretary of DHS has expressed a commitment to 
risk management, the Department has yet to really perform a 
fully comprehensive risk management assessment in order to 
guide its allocation of resources in key areas, and I might add 
that it is going to need the Congress's help here, as well, 
because sometimes the Congress tends to want to give directions 
as to how the money should be spent in some circumstances that 
do not relate to risk. We have limited resources, so it is 
important to try to be able to allocate those as prudently as 
possible to mitigate as much risk as we can.
    DHS has not been able to obtain an opinion on its financial 
statements, and in fact, a number of its basic financial 
statements cannot be audited at the present time.
    They face challenges with regard to information management 
and also with regard to acquisitions and, as Chairman Akaka 
said, the human capital strategy. Let us face it. Every 
organization is only as good as its people, whether you are in 
the government, the private sector, or the not-for-profit 
sector. DHS has 180,000 people, very capable, committed 
professionals, but unfortunately, they are either ranked last 
or next-to-last with regard to the Best Places to Work survey. 
So there are serious morale and other challenges associated 
with the Department of Homeland Security and that won't be 
solved overnight.
    DHS has taken some steps to strengthen a number of program 
activities, and frankly, to address a number of our 
recommendations with regard to management, but there are a 
number of key programmatic challenges, such as the need to 
strengthen cargo and passenger screening, visitor tracking, 
efforts to combat employment of illegal immigrants, and 
outdated Coast Guard asset capabilities. It is constantly 
trying to struggle to balance its homeland security needs and 
other missions, such as disaster preparedness, and also we are 
all concerned with making sure that we can maximize security 
without undue invasion of personal privacy. There is a need to 
clearly define leadership roles and responsibilities in a 
number of areas and to take more steps to fight fraud, waste, 
abuse, and mismanagement, especially within the Federal 
Emergency Management Agency (FEMA).
    In order to be removed from GAO's high-risk list, DHS is 
going to have to do three things. First, they are going to have 
to have a comprehensive and integrated plan to deal with the 
areas that cause them to be on the high-risk list.
    Second, they are going to have to show significant progress 
towards effectively implementing that plan. They don't have to 
complete it, but they have to show significant progress.
    And third, they have to demonstrate to GAO's independent 
and professional judgment that their leadership is committed 
and that their structure and staffing is capable of completing 
the task.
    In summary, DHS is a very important agency. It is 
relatively new. In fairness to them, they are probably the 
second most challenged agency from a management standpoint. The 
first most challenged is DOD and it has been in existence 60 
years as of this year. Management is committed to improving 
things. I will tell you that we have had some serious records 
access challenges in the past, but I am also here to tell you 
that I had a personal conversation with Secretary Chertoff on 
the phone and I had a face-to-face conversation with Under 
Secretary Schneider. They have told me they are committed to 
improve things. Things are improving, but obviously only time 
will tell to whether it will be sustained. And in fairness to 
them, they have a lot of oversight requests, not just from us, 
but frankly, from a lot of committees and the Inspector General 
and others. Therefore, it is important that we try to 
coordinate our efforts to minimize duplication of effort while 
making sure the Congress can effectively discharge its 
constitutional responsibilities.
    Thank you, Senators, and I am happy to answer any questions 
you may have.
    Senator Akaka. Thank you very much, General Walker.
    As I mentioned earlier, I am going to have to leave. I want 
to apologize to both of you and especially to my good friend, 
Senator Voinovich. I will be turning over the Chair to him in 
my absence here. Because of the critical importance of DHS's 
reorganization, I will be submitting additional questions for 
the record. But I will try to be back here. So thank you very 
much and thank you again Senator Voinovich. I really appreciate 
your chairing this Subcommittee hearing.
    Senator Voinovich [presiding]. Thank you, Senator Akaka. I 
am very grateful for your calling this hearing of the 
Subcommittee. The two of us have worked conscientiously to 
perform our oversight functions of the new Department of 
Homeland Security. I think that General Walker's comment about 
the fact that two agencies that are most essential to the 
national security of our country are two of the worst in terms 
of management, underscores how important our work is to make 
sure that we fulfill our oversight responsibilities. The two of 
us are going to work together to see if in the next couple of 
years, we can get their programs susceptible to waste, fraud, 
abuse, and mismanagement off GAO's high-risk list.
    Mr. Walker. Don't bet a lot of money on that, Senator 
Voinovich.
    [Laughter.]
    Senator Voinovich. The transformation of DHS is probably 
the biggest management challenge ever undertaken by the Federal 
Government. In all fairness to the agency, you are brand new 
and Hurricane Katrina, which is the worst natural disaster this 
country has encountered, superimposed itself to the extent that 
I am sure many projects were placed on the backburner. I am 
familiar enough with management to know that there is a certain 
amount of energy that one has to put on reorganization if it is 
going to take place, and if something as big as Hurricane 
Katrina comes along, it just interrupts that and takes your 
focus away from the things that you should be concentrating on. 
So in all fairness, that should be, I think, acknowledged.
    I believe part of the problem of getting to the 
transformation that we want in terms of management in the 
Department is caused by the Legislative Branch of government 
and I would like your opinion in regard to the number of 
oversight committees that this agency has to respond to and 
whether or not you feel that it is incumbent on us to reexamine 
the oversight so that you don't spend half your time running up 
here to testify before committees like ours and others in the 
Congress.
    Second, I really believe that if this Department is going 
to achieve the transformation necessary for mission 
accomplishment, we need a Chief Management Officer to drive the 
transformation. I feel the same way with respect to the Defense 
Department. I really believe that one of the reasons why the 
Defense Department is still plagued with management challenges 
is because of the changes in direction and leadership and 
resulting of loss momentum for transformation. I believe, you 
need somebody paying attention on a full-time basis to 
management.
    There are some systemic changes that need to be made if we 
are ever going to accomplish real reform.
    Mr. Walker. I agree, Senator. As you know, and we have had 
conversations, in my view, the Federal Government is not well 
positioned in order to be able to effectively address the 
challenges and capitalize on the opportunities of the 21st 
Century. As you know, the Federal Government tends to be a lag 
indicator and there is no question that both the Executive 
Branch and the Legislative Branch need to reexamine how they 
are structured in order to be able to more economically, 
efficiently, and effectively discharge their respective 
responsibilities.
    I do think there is a need to relook at how many committees 
are involved with regard to the oversight of Homeland Security, 
but not just Homeland Security, frankly, with regard to other 
areas of government, as well.
    Second, with regard to the Chief Management Officer 
concept, I believe that it is absolutely essential at the 
Defense Department. It is strongly desirable within the 
Department of Homeland Security. What is needed, as you 
properly pointed out, is this is a major undertaking, arguably 
unprecedented in the history of the Federal Government, and it 
is going to take the full time and attention of a number of 
parties in order to be able to help maximize the chance of 
success.
    We need somebody who is responsible and accountable on a 
full-time basis with regard to the overall business 
transformation-integration process. They need to be at the 
right level, to have the right qualifications, and to have the 
right reporting lines. I believe they also should have a term 
appointment because this is not about policy, this is about 
good government. It is about economy, efficiency, 
effectiveness, ethics, and equity. Those aren't Republican or 
Democrat. They are not liberal or conservative. It is going to 
take a number of years for us to be able to effectively address 
these transformation challenges and we need some continuity in 
order to be able to do it.
    I will also respectfully suggest that it would be desirable 
to have some type of a performance contract such that the 
individual who has this job is held responsible and accountable 
and could be recognized and rewarded appropriately if they do a 
really good job, but also could be held appropriately 
accountable if they don't.
    Senator Voinovich. Mr. Schneider.
    Mr. Schneider. Senator, in response to the first question, 
the Congressional oversight in the 109th Congress we keep track 
of this--there were 86 committees that exercised Congressional 
oversight over the Department. In the 110th Congress, there are 
two new subcommittees. Clearly, it is not our prerogative to 
recommend how many committees ought to have jurisdictional 
oversight, but the fact is----
    Senator Voinovich. Why not?
    Mr. Schneider. Well, that is really the prerogative of the 
Congress. I mean, I think the 9/11 Report made some 
recommendations regarding streamlining the oversight. I can 
tell you that since the first of the year, apparently this is 
the 100th hearing since the first of the year where a DHS 
official has testified.
    Senator Voinovich. Well, let me tell you something. I don't 
agree with you. If I was the President, and the oversight by 
the legislative body was preventing me from performing the job 
that they have asked me to do, I would ask the Majority Leader 
and the Speaker of the House to my office and I would say to 
them, you guys have asked me to do a job and I can't get it 
done because of the harassment that I am under and implore them 
to better organize the way oversight is being conducted.
    Mr. Schneider. Yes, sir.
    Senator Voinovich. I would like you to provide information 
on the number of hearings you have testified at and what you 
think would make sense in terms of the oversight. We ignored 
this part of the 9/11 Report and I think that if we have good 
information, we can generate support.
    Mr. Schneider. Yes, sir.
    Senator Voinovich. Chief Management Officer.
    Mr. Schneider. CMO. First off, relative to the need for a 
Chief Management Officer, I believe one of the few by my 
responsibilities and authority that in practice is a Chief 
Management Officer. I know I have no equivalent at the 
Department of Defense, given the fact that I have broad 
responsibility for--I mean, there are at least three under 
secretaries in DOD that have the responsibilities that I have. 
So I am probably the closest, I would suspect, to a Chief 
Management Officer in the Federal Government within the vision 
or concept as proposed. And I think that is, frankly, one of 
the reasons why I found this job attractive when I was first 
asked about it, because I thought it was unique and I thought, 
based on the job responsibilities, that I was, in practice, the 
Chief Management Officer.
    I also have from practice, and I cite in my testimony, the 
support that I receive from the Secretary. His guidance for me 
is very clear. If you don't think you have authority to do what 
you need to get done, you just give me the piece of paper and I 
will sign it. He has already made good on that in very short 
order, within days when I pointed out the issue of the 
information technology. So based on what I believe is the 
confidence that the Secretary and the Deputy Secretary have in 
me and their support of basically structuring the management of 
the Department, in this present Administration, I believe I 
have the authority that I need.
    Based on the structure where I am, in fact, responsible for 
budget, IT, procurement and contracting, administration, 
security, I believe I meet the intent better than anyone else 
in terms of a Department within the Federal Government.
    Senator Voinovich. Why don't we put that in legislation and 
give you or someone else a term so you have sufficient 
authority to perform your job.
    Mr. Schneider. Yes, sir.
    Senator Voinovich. I just can't understand why your 
Department is opposed to having a Chief Management Officer.
    Mr. Schneider. I think, Senator, I believe the Secretary 
testified before one of the committees, and I forget which one, 
in early February when this came up and I believe----
    Senator Voinovich. It was our Subcommittee.
    Mr. Schneider. And what he, I believe, talked about was, 
and what I believe the message was basically at this stage of 
maturity in the Department, having a second deputy would be 
cumbersome--I don't know exactly the word he used, cumbersome 
or difficult--relative to a unified chain of command within the 
Department. And I can understand where he is coming from, and I 
will use the Department of Defense because I came from there.
    Unlike the Department of Defense, where--let us just say 
the operational side of combat and command and the like, there 
is a clear reporting chain and almost a separation of the 
operational forces with the sure infrastructure and support 
management side, and so it lends itself more to, if you will, 
where by law the Under Secretary of Defense for Acquisition 
Technology and Logistics can, in fact--I think it is Title X--
direct the service secretaries in a lot of those management 
areas. So he has basically line execution authority over 
procurement, contracting, test and evaluation, and the like.
    The situation at this point in time, I believe, in the 
Department of Homeland Security is significantly different. Our 
operational units, whether it be FEMA, TSA, CBP, etc., they by 
and large are operational commands as well as sure 
infrastructure support. The head of CBP is responsible for 
roughly 50,000 people. Many of them patrol the borders. He also 
has a group that manage major acquisitions, like SBI.net.
    And so at this point in time, we do not have, I believe, an 
operational structure that has matured where, in fact, you 
could effectively have two people below the Secretary 
exercising, if you will, line of control of authority over the 
operational components, and I believe that is why the Secretary 
has used terms like cumbersome, etc., in the unified command 
and control. And frankly, it took many years since the 
establishment of the Defense Department to--roughly 1986 for 
Goldwater-Nichols and then the Defense Management Review 
(DMR)--that they were able to give the authority to an Under 
Secretary of Defense for Acquisition, Technology and Logistics 
(AT&L) in this particular case. So I understand where the 
Secretary is coming from----
    Senator Voinovich. Comptroller General Walker, how do you 
respond to the fact that the Defense Department today has 14 
items on the high-risk list, eight of them that have been on 
since 1990, six of them have been government-wide, and the fact 
of the matter is that the place is still, pardon me, screwed 
up? General Walker, you have had a chance to hear Mr. 
Schneider. I would like your comment about this argument from 
the agency that says that, for some reason, they just don't 
need a CMO to be in charge of transformation and the conflict 
that he indicated that would occur if you had a deputy 
secretary to deal with transformation.
    Mr. Walker. Well, this hearing, as you know, Senator, is 
dealing with DHS, so I will focus on DHS, but I will say for 
the record, again, I think it is absolutely critical and 
essential that we have one at DOD.
    Now, I am a little bit perplexed, quite frankly, with 
regard to the debate about this because at DOD, they don't have 
this position. At DHS, they do have this position in part. So 
it is not like you are introducing a new position that has 
never existed before. The Under Secretary for Management is a 
position that, from a conceptual standpoint, was intended to do 
a lot of the things that the CMO is intended to do. But I think 
the thing we have to keep in mind is we need to look beyond 
individuals and we need to start thinking about institutions.
    Secretary Chertoff and Under Secretary Schneider may have a 
great relationship, but we don't know who the next Secretary or 
Under Secretary is going to be. We don't know who the next 
Administration is going to be, who is going to be President of 
the United States, and the question is what type of assurance 
do we have that we are going to have the right type of people 
in the job and that they are going to be there long enough to 
be able to get the job done.
    And so my view is that on the level, at DOD, it has got to 
be level two to get the job done. At DHS, the question is, what 
level do you need to be to get the job done. Now, whether that 
is level two or level three, I think two is preferable. It is 
essential at DOD. It may or may not be at DHS, but you need to 
be at the right level.
    Second, I think a term appointment is highly desirable. I 
think it is also fully appropriate. Why? Because this is good 
government. This isn't about policy. This isn't about politics. 
This is about economy, efficiency, effectiveness, ethics, and 
equity.
    Now, the objections that I hear about a term appointment 
are that the President ought to have the prerogative and the 
Secretary ought to have the prerogative with every PAS 
appointment to be able to put whoever they want, subject to 
confirmation by the Senate, and remove them whenever they want.
    For example, there are a number of management type 
positions where I would assert that it is important to have 
statutory qualification requirements for the persons to make 
sure you have the right kind of person in the job and you could 
have the following.
    You could have an advance notification requirement by the 
President to the Congress of the United States, both the Senate 
and the House, say, on his/her intention to nominate a specific 
person for the job. Here are their statutory qualification 
requirements. I believe they are qualified. It is not a policy 
job, it is a management job. And if the Congress or the Senate 
has difficulty with that, believe me, you know as well as I do 
there are ways that you can express your displeasure without 
having a confirmation hearing.
    Now, my personal opinion is the CMO ought to be PAS, and 
ought to be subject to Senate confirmation, because while it is 
primarily a professional job and it is primarily an operational 
management job, they are going to have to interface with the 
Secretary and the Deputy Secretary and there will be policy 
issues that they will be in discussions on from the management 
and execution perspective and they are the ones that ultimately 
will be responsible and accountable----
    Senator Voinovich. And we agree with that.
    Mr. Walker. Right. So Chief Financial Officer (CFO), Chief 
Information Officer (CIO), Chief Human Capital Officers 
(CHCOs), Chief Procurement Officer (CPO), those kinds of jobs, 
I think you could think about taking an alternative approach 
where the Congress would still have a role to play but where we 
are getting the right kind of people in the job.
    Bottom line, my view is that the CMO makes eminent sense. I 
think your legislation has strong merit. I don't really 
understand why there would be opposition to it. It is only 
going to make this job stronger, not weaker, and candidly, with 
regard to the term appointment issue, if I was the Secretary of 
DHS or the Secretary of DOD and I had a top-quality 
professional that was in that job to deal with these issues who 
was willing to make that type of a commitment, a 5 to 7-year 
commitment, that would be a Godsend, an absolute Godsend.
    And believe me, if the chemistry is not right, which some 
people will say, because you were picked by a former President 
or a former Secretary, believe me, the level of people we are 
talking about here, they have plenty of other things to do. If 
the chemistry is not right, they will just go someplace else. 
It is as simple as that.
    Senator Voinovich. Yes. Thank you. Let us talk about the 
strategic plan. When Deputy Secretary Jackson met with me the 
other day, we talked about the Department's strategic plan. Of 
all of the agencies on the high-risk list, it is my 
understanding that the only one that hasn't submitted a 
strategic plan is DHS. I would like to hear the explanation for 
why that plan hasn't been submitted.
    Mr. Schneider. Yes, sir. I have also talked to Clay Johnson 
about that and I will tell you this. When I came into office in 
early January, Clay Johnson was one of the first people that I 
talked to and he said, go look at the strategic plan. So I went 
and found the strategic plan and what I determined was, simply 
put, it was garbage, and so I talked to the Deputy Secretary 
and I said, we cannot send that out because the fact is it 
doesn't address really the important strategic issues, 
especially what we have to do to meet the requirements that 
have been identified by the high-risk list.
    And so when I talked to Clay, I told Clay that you are not 
going to see that strategic plan because it is garbage, and so 
I told him what we have to do is we have to take the framework 
that has been established by the GAO, structure a strategic 
plan around that, and that is what we have to work to.
    So one of the things that we have been doing is working 
with the framework that the GAO has identified, and it is a 
marvelous framework. It takes everything that the Department is 
supposed to do, breaks it into four mission categories, the 
four mission categories are broken down into 14 specific 
mission areas that address not just the management aspect, but 
the critical mission execution, whether it is protecting our 
borders, response, critical infrastructure, and the like. It 
further breaks it down into approximately 172 performance 
expectations. These are the measures by which the Comptroller 
General goes and takes a look at our performance. And so what 
we are doing now is structuring a strategic plan that is 
properly aligned with the four mission categories and the 14 
mission areas and have basically our strategic plan be the 
framework to basically improve our performance in the areas 
that we are getting measured against.
    So the bottom line is the plan that was in process when I 
came in place, I looked at it and I determined it was unset. We 
looked and one of the things we have been doing is digesting, 
if you will, all the GAO documentation. One of my key staff 
members behind me pointed out that if we were a private 
company, we would pay consultants, like what I used to do for a 
living, a fortune to basically identify the framework and the 
areas where we need improvement. And so as she aptly puts it, 
Ms. Regis sitting behind me here, she aptly put it is, you 
don't have to pay consultants. The government has provided that 
for you.
    So what we are trying to do is take this framework, which I 
happen to think is excellent, work our strategic mission around 
that, and that is what we are going to get measured against. 
This way, the GAO can assess our performance against our plan, 
OMB can assess our performance against the plan, and the 
Congress will have measures that, as the Comptroller General 
says, we have to demonstrate a sustained performance over a 
period of time. So that is why that plan hasn't gotten issued.
    Mr. Walker. If I can clarify, Senator, I think it is 
important for all of us. There are really two plans that we are 
talking about. First, the Department does have a ``strategic 
plan'' as required by the Government Performance and Results 
Act and it exists and it meets five of the six criteria for a 
strategic plan. The big area that it is missing is linking 
resources to results, and there is always room for improvement. 
So they do have a strategic plan.
    What they don't have is a comprehensive and integrated 
action plan to get off of GAO's high-risk list. That is what 
they don't have and that is what has to be pulled together. So 
they do have a strategic plan. It is, in the aggregate, it is 
pretty good, except for the one area. But they don't have a 
comprehensive and integrated action plan to get off GAO's high-
risk list and that is what they need, and I just told them that 
we won't send them a bill for our advice----
    [Laughter.]
    Mr. Walker [continuing]. But we would like for the Congress 
to fund us a little bit more adequately.
    [Laughter.]
    Senator Voinovich. Well, as you know, General Walker, one 
of the things that we did with the supply chain management is 
OMB, the Defense Department, and GAO, to put together a 
corrective action plan. It would seem to me that if you had 
such a plan in place, Mr. Schneider, at least you could 
establish a baseline and measure progress.
    Mr. Schneider. Yes, sir.
    Senator Voinovich. My suggestion would be that you try to 
accelerate that effort and work with GAO and OMB to develop a 
plan to address the issues highlighted in the GAO report.
    Mr. Schneider. Yes, sir.
    Mr. Walker. And Senator, the other reason this is important 
is because we know there will be a new Administration in 
January 2009 and so it is important to be able to have such a 
plan in place so hopefully that will be a basis for maintaining 
progress in areas that inherently are not partisan areas.
    Senator Voinovich. Once this plan is in place, we can use 
it to ensure the new Administration continues the progress made 
to date. In a way, that is continuity in itself. If you had a 
CMO and a strategic plan that everybody knew about, it would 
make it so much easier to determine whether, indeed, you are 
making some progress. The real key is to institutionalize these 
plans so that they become part of the fabric of the agency and 
progress can continue.
    Mr. Walker. If I can mention really quick, Senator, as you 
know, I headed two Executive Branch agencies in the past in 
addition to the one that I head now in the Legislative Branch 
and I will say for the record that I had two deputies for the 
agencies that I headed in the Executive Branch and it worked 
great. I had one that was focused primarily on policy and 
external matters. I had another one that was focused primarily 
on management, operational, and enforcement matters. We worked 
together as a team and it was very effective.
    Senator Voinovich. Well, one of the things that I have 
always thought about doing is bringing Total Quality Management 
to the Federal Government. As you know, General Walker, the 
Federal Government faces a human capital challenge with people 
planning to retire. We have enacted flexibilities into the 
system so that we recruit, retain, and reward people that chose 
to work for the government. Total Quality Management could make 
a big difference in the various departments because I honestly 
believe that it is the only way that you can get people 
involved in coming back with recommendations on how they can 
improve their operations.
    When agencies are given the chance to set up Most Efficient 
Organizations, and given the opportunity to look at themselves 
to figure out how they can be more competitive, it is 
interesting that 80 percent of the time, the MEO is selected to 
carry out the particular function. It would be nice if we could 
get these efficiences before we had a competition, as part of a 
quality management operation throughout the Federal Government.
    Mr. Schneider. I have had a lot of experience with that, 
Senator, with running the A-76 competitions, and you are right. 
Unfortunately, in many cases, it takes a forcing function like 
your survival and your jobs to basically force the leadership 
when you go down to those levels, the fact that we are either 
going to become the Most Efficient Organization or we are going 
to be out of a job. And so my view is that is a responsibility 
of leadership to drive--just like if we were in the private 
sector, to drive those efficiencies without having to have the 
threat, if you will, on a case-by-case basis.
    Senator Voinovich. But you see, the interesting thing is we 
did this exercise with 56,000 employees in Ohio State 
Government. As Governor, I went to school for a week with my 
labor union members. We had 3,500 continuous improvement teams 
when I left, and 2,500 facilitators. When the people get the 
training and then they are given the empowerment and also some 
money so they can upgrade their skills, they become energized.
    Mr. Schneider. Yes, sir.
    Senator Voinovich. They really do. I had people come up to 
me and say, you know what? I have been here for 25 years, and 
now I really feel like I am somebody. I am involved. People are 
listening to me. We had an opportunity each year where we 
brought in these continuous improvements teams to share best 
practices. There was an excitement there.
    Mr. Walker. Senator, if I can follow up on that, I will 
have my staff send to your office the result of a commission 
report that I was asked to chair by the Congress several years 
ago dealing with competitive sourcing. And while the Executive 
Branch took a number of steps to try to implement some of those 
recommendations, the Legislative Branch really didn't do 
anything. I think the time has come to relook at some of those 
recommendations.
    One of the ironies that I have found was this: Why aren't 
we looking for Most Efficient Organizations throughout the 
government. Why aren't we creating mechanisms to try to make 
this happen? Why do we have to wait until we decide that this 
may be a target for competitive sourcing before we do a Most 
Efficient Organization? Why can't we look to try to create a 
pool of funds where organizations can make a business case, 
maybe to OMB, to try to be able to help engage in this, absent 
competitive sourcing?
    And the other issue that we have is, quite frankly, we are 
relying upon contractors to a much greater extent than is 
prudent and appropriate in many circumstances.
    Senator Voinovich. And we don't have enough people in the 
agencies that have the sophistication to ensure comprehensive 
contract management and oversight.
    Mr. Walker. Yes, and one of the things that either the full 
Committee or this Subcommittee needs to do is dedicate a 
hearing just to this topic. It is a huge government-wide 
challenge and we are talking about billions of dollars and tens 
of thousands of people.
    Senator Voinovich. Mr. Schneider, serious contract 
oversight lapses and poorly-defined requirements jeopardized 
the Coast Guard's Deepwater Fleet Modernization Program and 
resulted in boats that did not float. What lessons has the 
Department learned from the Deepwater mistakes? Was the prime 
contractor held accountable for poor performance? What 
penalties did you extract out of that contract?
    Mr. Schneider. Let me try and answer all different parts of 
that. First, the Deepwater program was intended conceptually to 
be a comprehensive recapitalization of Coast Guard assets--sea 
assets, air assets, shore-based architecture, command and 
control, communications, and logistics. It was intended as a 
comprehensive, roughly $17 billion initially and then went to 
$24 billion for various reasons, total asset replacement, 
almost like a single--a comprehensive solution of multiple 
assets. So that was the concept.
    Senator Voinovich. By the way, who was the person that was 
overall in charge of that? Which person?
    Mr. Schneider. At the time it was, before the Department 
existed, it was basically initiated by the Coast Guard under 
its previous Department of Transportation, I believe. So this 
started years----
    Senator Voinovich. What person in the Coast Guard was the 
person that had been responsible?
    Mr. Schneider. Well, ultimately, it was the Commandant. 
There was an admiral in charge of the program, but by and 
large, I believe the program was sponsored by the Commandant.
    Senator Voinovich. Well, I would like you to, in writing, 
get back to me. I would like to know who was in charge.
    Mr. Schneider. Yes, sir. Absolutely. And so the concept was 
a comprehensive recapitalization of all Coast Guard assets for 
the future. Because legacy assets were beyond their useful 
life, etc., it was costing a lot of money to maintain them. And 
the contract was awarded to a joint venture between Lockheed 
Martin and Northrop Grumman.
    So the problem, I think, specifically you are talking 
about, boats that work, is one element of the program. One of 
the initial priorities in the program was to replace the cutter 
fleet, and so what they did was they came up with a package 
solution, large national security cutter, mid-sized offshore 
patrol cutter, and then the workhorse boat of the Coast Guard, 
which is a fast-response cutter.
    Because of the fact that the missions were changing and 
there was more demand being put on the boat, they looked for a 
stop-gap measure to fill what they called the gap in patrol 
boat hours. There is a certain number of hours that they 
perform yearly. So they looked at a short-term solution, near-
term solution to fixing the gap in patrol boat hours and what 
they concluded was they could take the existing 110-foot patrol 
boats, the Island-class patrol boats, and modify them to 
basically extend them to 123 feet, put in the modernized C4I 
suite, and that would, in fact, accomplish the near-term 
objective.
    And so the problem was that the way that was done, 
designed, etc., they ended up having some structural problems 
after those boats were delivered. So that is where the 
Commandant, I think about four or five months ago, maybe less 
than that, decided that operationally they were not suitable 
and he basically took them out of service.
    In response to the liability issue, I know that his 
Department, with help from my people in the procurement 
organization and the Office of Counsel, are trying to answer 
the very specific question about liability. So that work is 
underway. I believe the Commandant has testified many times 
regarding the details of the 123-footers and what they are 
doing to determine liability.
    Now, with respect to your question, what the Coast Guard 
did starting several months ago, I think it was roughly in the 
fall, late-summer, fall time frame, is to bring independent 
people in to take a look at the whole Deepwater structure. It 
ends up being actually a coincidence that I, in my previous 
life, was brought in to head a team of people that the Coast 
Guard had contracted with Defense Acquisition University to 
bring in an independent team of experts to go look at the 
Deepwater program.
    So to get to the bottom line, there was a whole series of 
recommendations made by that group. As part of that, what the 
Commandant has done is instituted a complete restructuring of 
the program. For example, and I think this gets at your point, 
these guys, they didn't do a good job, so what is the 
government doing about it? They are doing the following.
    Mr. Schneider. Yes, sir.
    Senator Voinovich. I have to go vote.
    So if you could maybe provide additional information on the 
project I would appreciate it.
    Mr. Schneider. I will give you a piece of paper----
    Senator Voinovich. Yes.
    Mr. Schneider [continuing]. But basically, we have 
restructured the contract, changed the management structure, 
more Coast Guard heavy involvement in terms of running 
competitions and making source selections, and it is much more 
hands-on. In addition, we have achieved some success in 
bringing in, I would say, high-end acquisition professionals at 
the high level and at the lower level to really beef up the 
acquisition, execution, and oversight.
    Mr. Walker. My understanding is the lead contractor was 
fired, as well, but that doesn't----
    Senator Voinovich. The last thing, if you can give it to me 
in writing, is that the Department has now embarked on the 
SBI.net, a multi-year, multi-billion-dollar effort to secure 
the boarders with a combination of fences, high-tech monitoring 
devices, manpower. Questions have been raised about the 
undefined nature of the contract, and what I would like you to 
do for me is to submit in writing----
    Mr. Schneider. Yes, sir.
    Senator Voinovich [continuing]. How you are working to 
ensure that the SBI.net and other future acquisitions do not 
waste taxpayer dollars on insufficient systems.
    I understand that Senator Akaka will be able to come back 
afterwards. What is your schedule like?
    Mr. Walker. You are my client, so I will stay here. I think 
I have something at noon, but I don't have anything before 
that.
    Senator Voinovich. Mr. Schneider.
    Mr. Schneider. I am at your service.
    Senator Voinovich. Well, we are eating up your time. You 
could be back working on your strategic plan.
    [Laughter.]
    Mr. Schneider. This is very important to me.
    Senator Voinovich. We are going to recess and resume the 
hearing shortly. Thank you for your patience.
    [Recess.]
    Senator Akaka [presiding]. This hearing will be in order.
    I appreciate your understanding, and I understand also that 
while I was gone, the witnesses addressed our CMO bill and the 
Department's need to finish a comprehensive management 
integration strategy. So I won't be going into those issues, 
but I will start with another issue very important to me and to 
my friend, Senator Voinovich, and that is human capital. Again, 
I want to thank my good friend, Senator Voinovich. We have 
worked so well together and over the years have worked with 
General Walker, as well, on the challenges that we are facing 
and we are, I would say, trying our best to address those 
challenges.
    Secretary Schneider, we both know the importance of 
attracting and retaining skilled and trained workers, 
especially those safeguarding the Nation against man-made and 
natural disasters. However, I am concerned about the use of 
personnel flexibilities by DHS. Earlier this year, OPM released 
the annual report of agencies' use of student loan repayments. 
DHS reported that only 17 employees received student loan 
repayment. While I have been here, I have considered that to be 
so important to our Federal workforce and to try to keep them 
well-qualified so that they will be able to move into these top 
positions when the time comes. Of course, a student loan 
repayment program can certainly help in that direction.
    Secretary Schneider, why is the number of employees at DHS 
participating in this program so low?
    Mr. Schneider. Senator, I frankly don't know. This is the 
first time that student loan repayments has ever really been 
put on my radar screen. That number is, frankly, astonishingly 
low, and as much as I hate to admit, it was over 40 years ago 
that I had student loan payments to make. To me, that is a big 
deal. So I will go back and look at that and I will get back to 
you.
    Senator Akaka. Will you please?
    Mr. Schneider. Yes, sir.
    Senator Akaka. As I said, it is important to our future 
human capital, and if anything, we need to try to raise the 
level of those kind of programs.
    Can you also provide for the record in this regard the 
number of Federal employees at DHS who receive retention 
bonuses and the amount of money DHS spends on employee 
training?
    Mr. Schneider. Yes, sir.
    Senator Akaka. And again, you can see the direction here of 
our----
    Mr. Schneider. Sure.
    Senator Akaka [continuing]. Trying to train people for 
these high positions.
    General Walker, in your testimony, you state that GAO has 
not yet been able to review DHS's new human capital operation 
plan, HCOP, to see if this new plan addressed your previous 
recommended changes. I want to tell you, General Walker, that 
during my time here, you have made so many great 
recommendations over the years. I can see that it was based on 
your experiences here and these have been great. Unfortunately, 
many of them, we haven't really been able to do. But it has 
helped us in trying to improve the situation here.
    When do you expect, General Walker, to review that plan? We 
would very much like to get your assessment as quickly as 
possible after that happens.
    Mr. Walker. Senator, we fully intend to review their new 
plan and to find out whether or not they have complied with our 
recommendations. I will provide something for the record as far 
as the timing. Let me note for the record also that, 
fortunately, about 80 percent-plus of GAO's recommendations in 
recent years have been adopted within 4 years. Sometimes it 
takes longer for people to see the light and find the way, but 
it is a very high percentage.
    And let me, if I can, while you are talking about human 
capital for DHS, Senator, mention one other thing. I know there 
is some controversy right now between the Congress and the 
Executive Branch about whether and to what extent the 
legislation should be moved dealing with the flexibilities that 
the DHS has in the human capital area.
    One thing that I would respectfully suggest that you 
consider, and I also mentioned this to Senator Voinovich, is, 
as you know, we have recommended a number of times, including 
before this Subcommittee, that there are certain safeguards 
that should be in place that should be coupled with any 
statutory flexibilities in order to maximize the chance of 
success and to minimize the possibility of abuse. Not all of 
those safeguards were incorporated into the DHS legislation and 
very few, if any, were incorporated into the DOD's National 
Security Personnel System (NSPS) legislation. So that is 
something that you may want to think about if you have concerns 
about how things are proceeding. That could end up being a 
potential compromise between outright repeal and trying to make 
sure that it is done right and in the interest of all affected 
parties.
    Senator Akaka. Yes. And as you know, General, we have 
frequently spoken about oversight and so these safeguards would 
certainly be a way to get to that. Oversight has been costly 
and time consuming, so I thank you for that.
    Secretary Schneider, I know you were deeply troubled by 
DHS's poor ranking in the 2006 Federal Human Capital Survey. I 
am certain everyone is doing what they can to try to improve 
morale. What effort is being taken to identify best practices 
within DHS component agencies in which morale is high, assuming 
they exist, and to pass those lessons on to the agencies most 
afflicted by poor morale?
    Mr. Schneider. Senator, first of all, thank you for that 
question. There are, in fact, elements of the Department when 
you go in and look at the data that fared very well, and what 
we have learned is usually the smaller the unit, in many cases, 
the better the responsiveness in terms of the people that 
responded as well as the nature of their response was much more 
positive.
    For example, U.S. VISIT, which is the organization, I think 
it is a couple of hundred people, responsible for implementing 
the ten-fingerprint screening technique, they had a very high 
percentage of those individuals that were surveyed, responded 
to the survey, and they came out very high in terms of their 
positive responses. In terms of a larger organization, I would 
say the Secret Service, if I recall, their response rate was 
very high and the nature of their responses was very high.
    So what we are doing is this. We are in the process as we 
speak, literally, throughout the country, holding focus group 
sessions from across the Department, trying to identify those 
best practices by which people communicate, some of the lessons 
learned from trying to implement performance management, how do 
we identify these best practices and share them, how do we 
communicate. We are talking about starting with the Secretary 
on down.
    There has been an increase in the number of people who have 
successfully used all-hands meetings. I, in my own 
organization, for example, of roughly 500 people because they 
are scattered all over the district, have run four all-hands 
meetings shortly after I came on board, when the results of the 
survey were published. Most recently, within the past 2 weeks, 
I ran four separate sessions.
    And what people are doing is they are taking what are the 
Department goals, what are we trying to do, what are the 
specific actions, and then each organization--what does that 
organization do that makes a difference, whether it is the 
security people that are guarding the perimeter, whether it is 
the contracting people that are awarding contracts, and so what 
we are seeing is communications was identified as a serious 
shortcoming, performance management, that basic employee-to-
supervisor relationship, as well as recognition programs.
    So we are instituting across the Department an awards 
program that is modeled after the best practices across the 
government. We don't have that type of structure that is in 
place, and so we need to start working on that. The other thing 
we are doing is we are doing quality assurance of our 
performance management effort. So we are focused on best 
practices.
    I have personally talked to the heads of each of the 
operating components to get a gut feel for some of the kinds of 
things that they are doing individually, and then our plan is 
to figure out what ought to be done centrally, corporate-wide, 
and what are those things that can best be done individually.
    Senator Akaka. Thank you. Mr. Walker, I know you have had a 
lot of experience in these areas and I want to ask you, too, 
could you provide your thoughts----
    Mr. Walker. Sure.
    Senator Akaka [continuing]. On how the Department should 
address morale problems.
    Mr. Walker. Thank you, Senator. There are a number of 
things, but I will mention three now. First, it is not unusual 
for smaller organizations to have somewhat higher response 
rates and somewhat higher scores, all things being relatively 
equal, because you have more cohesiveness. It is more of a team 
and family-oriented structure. They can interact with their 
leaders easier and typically you have better communication the 
smaller the unit is. But it is also not impossible for large 
organizations and medium-sized organizations to do well here, 
as well.
    In my view, there are three important elements that I would 
mention now. First, there has got to be total commitment from 
top leadership. If top leadership does not make human capital a 
top priority, it really doesn't make a difference whatever else 
you do, and it has not only got to be words, it has got to be 
actions. You have to see top leadership visibly, actively 
engaged in key elements.
    Second, effective communication. The larger the 
organization, then the more critically important communication 
becomes, and it is not just written communications. It is video 
conferencing. It is small group meetings. In some cases, it is 
all-hands meetings or whatever, but a variety of means in order 
to try to be able to get the message out both to large groups, 
to small groups. And communication, as you know, Mr. Chairman, 
is a two-way street. It is not just imparting information, but 
very importantly, it is active listening and hearing what 
people have to say and seriously considering what they have to 
say.
    And third and very importantly, employee participation, 
empowerment, feedback, and appreciation. There must be a number 
of programs in place in order to try to help emphasize employee 
participation, empowerment, feedback, and appreciation.
    Now, we are far from perfect at GAO. We never will be 
perfect, and frankly, no organization will ever be. But we were 
ranked No. 2 by our own employees among the largest Federal 
agencies as a place to work despite some very difficult and 
somewhat controversial changes that we have made. We are still 
ranked No. 2. We are looking forward to being ranked No. 1 
eventually.
    Senator Akaka. Good luck.
    [Laughter.]
    Secretary Schneider, Mr. Walker in his testimony mentions 
that the Business Transformation Office has been eliminated. 
This office used to help integrate the Department's functions. 
I understand that the BTO's work is now being performed by the 
Office of Policy, but the DHS Policy Office has been given 
increased responsibilities. Can the Policy Office really 
perform this function and its other obligations? I would 
appreciate Mr. Walker's additional comments on this question, 
as well. Mr. Secretary.
    Mr. Schneider. Senator, first, it is my understanding 
that--and this happened before I came on board--that the 
Business Transformation Office, the BTO, was identified as 
either a line item in the Under Secretary's budget or included 
in an existing line item in the Under Secretary's budget that 
was--and there were roughly seven, I think, billets assigned to 
that office. My understanding is that Congress did not fund, or 
more specifically did not want to fund the BTO, so in one of 
the appropriations bills, they zeroed that out.
    And what happened was, I don't think they even fully 
staffed up to seven, but to make a long story short, when I 
came on board, there were roughly three people left, if you 
will, and they were given other responsibilities within the 
Office of the Under Secretary for Management. I am unaware that 
the responsibilities of what was originally envisioned and 
executed as the BTO, I am unaware of the fact that has been 
picked up by Policy. I work very closely with the Assistant 
Secretary for Policy and what they do, especially the strategic 
planning group, and I am unaware of the fact that they have 
picked up that responsibility.
    What I do is, as a matter of routine, I don't have lots of 
independent staff. I work through the business chiefs. So any 
transformation effort, I would use the existing chain of 
command to put multi-discipline groups together to go 
accomplish an objective. So I will go back and check this 
Office of Policy, whether or not some functions were 
reassigned. I am not aware that they were.
    Senator Akaka. General Walker.
    Mr. Walker. If I can, Mr. Chairman, first, I am not sure 
whether or not the Congress lined-out this particular item or 
not or whether or not there was a line item for this particular 
unit, but if there was, that is a matter of major concern. For 
there to be a line item for a unit of seven people is 
incredible micro-management, in my view. I don't know if that 
is true. I am going to go back and try to follow up. For the 
Congress to get involved in that level of precision and detail 
is very troubling if that is true.
    Second, I think there needs to be a business transformation 
team. Call it whatever you want. It should be a small group. 
Ideally, it would be a combination of people who are core and 
detailees coming from key different units in order to work with 
the CMO and Under Secretary to try to help achieve the overall 
implementation of the transformation plan. I think it clearly 
is a best practice, it is clearly appropriate, and it needs to 
be funded. And importantly, it needs to be staffed by the right 
kind of people.
    Senator Akaka. Thank you. Secretary Schneider, the Homeland 
Security Appropriations Act for fiscal year 2007 contained a 
provision I authored to establish a rotational program to allow 
employees at DHS to gain broad expertise throughout the 
Department. I believe this type of program could help the 
Department enormously in building an effective sense of 
mission. Can you tell me what is the status of that rotation 
program?
    Mr. Schneider. Yes, sir. It is actually a two-step process. 
The first thing is we are putting in place as a result of that 
language a formal rotation program whereby we identify specific 
opportunities, the operating components, make sure the 
workforce understands that this is a necessary type of 
experience if people are going to rise to above a certain 
level. I have had a lot of experience with that in the Navy. So 
we are basically in the process of setting up the groundwork to 
implement across the Department that type of program.
    As a near-term action, what we have decided to do and have 
implemented already is we started a DHS Fellows Program. This 
is a program that basically takes some of the best and 
brightest from across the Department and work with them as a 
future leadership team over a period of a couple of years. We 
give them broad experiences in leadership. We expose them to 
some of the significant issues and problems that the Department 
has and they work on them.
    What we have decided to do, because we have this group of 
bright people already assembled, is to tack onto the end of 
their program--I think it is roughly a 6-month mandatory 
rotational assignment that would start implementing that right 
now with this group of very bright folks.
    So near-term step, implement this as part of our existing 
DHS Fellows Program, and the second is to basically have a much 
more institutionalized formal program across the Department.
    Senator Akaka. What types of rewards or incentives will be 
in place to encourage mid-level employees to serve in other 
areas of the Department?
    Mr. Schneider. Well, my experience in the past has been, 
and what we used to do in the Navy is that some of our key 
field activities which were basically the operating components, 
we felt that the people to rise to the SES level, what we did 
in some cases was make it a mandatory requirement at some of 
our key field activities that to be selected for an SES 
position, they needed to have headquarters experience for a 
period of time. And so once the leadership of the organization 
recognized the value of that type of an experience, the best 
and brightest responded and what we were able to do across the 
board very successfully is to move people to very key 
assignments for roughly 8 months to a year and then move them 
back. That helps strengthen the concept of a unified 
organization.
    So what we are looking at is how do we make this an 
incentive for people? Do we do things like that? It may not 
work in every application. The other thing is there could be a 
series of different incentives, depending upon the career 
field. For example, the Chief Financial Officer (CFO), has 
already instituted a program that basically moves CFOs around 
the Department. I had the opportunity to talk to the entry-
level class of folks that have been selected for this program.
    So I think it depends on the career field. I think it 
depends on the geography. And I think the incentives will range 
differently, and that is what we are looking at as part of our 
comprehensive across-the-Department program.
    Senator Akaka. Secretary Schneider, last year at your 
confirmation hearing, I raised the issue of employee mentoring 
programs. I believe that mentoring programs are critical in 
passing knowledge from one generation of Federal workers to the 
next and also are critical in integrating legacy agencies into 
the Department. My question to you is, what is the Department 
doing to establish mentoring programs?
    Mr. Schneider. Senator, the first thing we have done is we 
have initiated, since I have been on board, with the working 
cooperation with OPM, an SES candidate development program. I 
had the opportunity about a month ago to talk to the first 
class that recently was selected--this has all happened very 
recently--class of SES candidates. And what we are in the 
process of doing as part of this program is to ensure that--and 
these are for people across the Department all over the 
continental United States--is to make sure that each of these 
candidates has a hand-picked mentor, and the reason being is we 
are investing a lot in these people. They are our future 
leaders and so we want to make sure that at the start, we have 
the right type of mentor for each one of these people.
    I had the opportunity to talk to all of the mentors for 
this population of candidates and to stress the importance of 
being a mentor. And so I think we have got mentors right now on 
the most near-term program, which is the SES candidates. Now 
what we are trying to do is figure out how we institute, I will 
call it a mix-and-match. In other words, throughout the 
Department, if you want to be a mentor, how do you sign up to 
be a mentor? How do we make sure that, in fact, we have the 
right people as mentors that really care about nurturing and 
guiding the career path?
    And then we need to basically make, once we have, I will 
call it a reservoir of mentors that possess the right skill 
set, then we need to go out and selectively across the 
Department, whether we do it by career fields or organizations, 
have people raise their hand and say they would like to 
formally have a mentor. So that is why I call it kind of a mix-
and-match. There are several models in existence across 
government. Our intention is to basically take some of the best 
practices and utilize them.
    Senator Akaka. General Walker.
    Mr. Walker. I might note, Senator, and Under Secretary 
Schneider might be interested in this, we are in the process of 
rolling out a mentoring program at the GAO on a broad basis. We 
have had them in certain circumstances in the past, but now we 
are rolling it out on a much broader basis. Carol Willett, who 
is head of our Performance and Learning Center, would be 
somebody you may want to get in touch with and would be happy 
to share our experiences there.
    Senator Akaka. Thank you very much. I just told Senator 
Voinovich that we have been talking about human capital, so I 
would like to ask Senator Voinovich if you have any further 
questions or comments to make. Senator Voinovich.
    Senator Voinovich. Thank you, Senator Akaka.
    I left off with the SBI.net, the multi-billion-dollar 
effort to secure the borders with a combination of fences, 
high-tech monitoring devices, and manpower. The Department 
can't afford to have any more acquisition failures. How are you 
going to ensure that we don't have the same problem with SBI 
that we had with the Coast Guard's Deepwater Fleet 
Modernization Program?
    Mr. Schneider. Senator, I personally think that SBI.net is 
a good news story in terms of how to do a major acquisition 
properly. First off, this contract was awarded roughly the 
first part of October. We have a program manager for SBI.net 
that has 30-plus years' experience managing major defense 
acquisition programs, highly technical Ph.D., supported by a 
strong technical team and contracting team.
    This is what I believe the Defense Department would call 
evolutionary or spiral acquisition. It is key to an initial 
deployment of a 28-mile sector of the Southwest border in 
Arizona, and as we speak, approximately--and this mix, just 
like you said, of technology, people, and infrastructure is 
going up.
    Senator Voinovich. Twenty-eight miles?
    Mr. Schneider. Twenty-eight miles. This is an initial 28-
mile, $20 million initial deployment. So my way of looking at 
it is this. There was a substantial amount of modeling and 
simulation work that was done to characterize, if you will, the 
performance of the sensors, be they radar, electro-optic, IR, 
seismic, etc., as well as demonstrations referred to as the 
common operating picture that will move across the border as 
well as to centralized command and control. This initial 
deployment is scheduled to be completed in June. The Army has 
been contracted with to run an independent operational test and 
evaluation over the summer.
    And so the idea is that this architecture that is going 
into this 28-mile segment is using equipment and sensors that 
exist. It is a modular and scalable architecture. We will get 
performance data and we will have obviously cost data on what 
it costs to field this thing at the end of the summer by which 
we can make the trades in terms of how well does this thing 
work. It will give us a chance to basically develop what is 
used, con-ops or tactics, training, and procedures to see how 
do we use this technology? How do we change our con-ops, etc.? 
How do we design our logistics paths so that once we detect, 
where do we intercept? How much in terms of temporary housing, 
because it is a mix of not just CBP, but ICE people? And so how 
effective is this thing?
    And then we do the analysis to decide, is this performance 
good enough or do we need to augment it with additional 
sensors, etc., make the trades,--this is why I think this is a 
good news story--we will have within 1 year after the award of 
this contract what I consider to be a pretty good handle on how 
well does this system perform, what is the scalability in terms 
of cost, and I consider that to be a significant risk reduction 
step that, in Deepwater, there was none, okay?
    Senator Voinovich. So what you are saying is that----
    Mr. Schneider. Yes, sir.
    Senator Voinovich [continuing]. You picked out a 28-mile 
area to try to develop a program and then use the information 
to expand----
    Mr. Schneider. Yes, sir.
    Senator Voinovich [continuing]. So the end result will be a 
foolproof system.
    Mr. Schneider. Right. I think this is a very smart way to 
do this business. Frankly, I have looked at all the testimony 
that has come out of the Department in the 12 months on this. 
Frankly, I don't think we have done as good a job as possible 
in terms of explaining what we are trying to do in terms of 
risk mitigation as well as, moving----
    Senator Voinovich. Well, this is good. I am glad to hear 
that. Hopefully, what you are doing there is going to have some 
positive impact on some of the decisionmaking that we have to 
make with respect to our immigration policy.
    Mr. Schneider. This is a very well-structured contract. I 
mean, we have already met the contribution the government has 
to make. We are not locked into one of these things where to 
sever it or significantly change it, like in the case of 
Deepwater, is a big effort. So this is an apples-and-orange 
comparison. I am personally pleased with the way that this 
thing is structured, and from my observation, I meet with the 
folks running SBI.net every 4 weeks just to see how well we are 
doing and I think this is a model for how, from a headquarters 
standpoint, we need to exercise oversight over some of these 
major acquisition efforts.
    Senator Voinovich. Thank you. General Walker.
    Mr. Walker. Senator, there are several important points 
here. One, there are some that will argue that the conceptual 
framework for the Deepwater Project had a lot of intellectual 
merit, but needless to say, it ended up with a totally 
unacceptable outcome. There are, however, significant 
differences, I believe, between the Deep Water and SBI.net. 
Many members, however, seem to be treating them about the same, 
and on the surface, I can understand why, because it is a 
system of systems approach and we are relying heavily on 
outside contractors to deliver for us. So from that standpoint, 
it is very similar.
    However, there are important differences and here are some 
of the elements I think are critical. First, we must nail down 
requirements. What are we attempting to accomplish? What are 
our requirements? And we need to fix them and not continue to 
change them.
    Second, we need to do it on an installment basis. Spiral 
development is the terminology that is used, but we need to do 
things on an installment basis, make sure that it works before 
we start to expand it more broadly.
    Third, we need to rely upon existing technologies to the 
maximum extent possible. In this regard, my son was an officer 
in the Marine Corps. He fought in Iraq, but before he went to 
Iraq, he was stationed in Yuma, Arizona. Yuma, Arizona, as you 
know, is on the border, and there is a very important testing 
facility for the Marine Corps there and they already use a lot 
of these technologies in order to try to keep people off of 
this testing range for personal safety and other reasons. So 
one of the big differences here is there are some technologies 
we can look at and we should maximize the use of existing 
technologies.
    In addition, we have to have enough people with the right 
kind of skills and knowledge to manage cost, quality, and 
performance of the contractors. We have absolutely got to have 
that.
    We need to protect the border, but there is another thing 
that relates to DHS that has to happen. If we don't start 
enforcing the labor laws with regard to hiring of illegal 
immigrants, we will never solve the problem because the average 
wage in Mexico for an unskilled worker is $4.50 a day. 
Therefore, the economic draw for people and their families is 
such that you may cut down on the amount, but you won't 
eliminate it.
    Finally, I think another thing that the Congress needs to 
think about is what does it take to become a citizen of this 
country? Merely because you are born in this country, is that 
enough, or should you have at least one parent who is a citizen 
of this country? It creates very perverse incentives to get 
people into the country to have somebody born in this country 
and then to serve as a basis to bring many more people into the 
country over time. That is something I think the Congress needs 
to think about, as well.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you, Senator Voinovich.
    This has been a good hearing. I want to apologize again for 
missing part of this important hearing. I want to thank you 
both for the time you spent preparing and presenting this 
valuable information to this Subcommittee. We appreciate the 
hard work that both of you are doing to ensure the strength and 
efficiency of the Department of Homeland Security.
    Today's hearing highlights the progress that DHS has made 
and the challenges that it still faces. I would like to draw 
attention to a couple of particularly important points from the 
testimony.
    I am pleased that Secretary Schneider has testified that 
DHS leadership is committed to identifying the reasons for low 
morale in the Department and addressing the problems quickly. 
The Department must work with and listen to employees in 
addressing their concerns just as it must with all human 
capital challenges. We are concerned that the Department is not 
doing enough to integrate core management functions across the 
Department, and as Mr. Walker testified, the Department still 
has no comprehensive integration strategy. Department-wide 
integration of functions such as human capital development, 
acquisition and procurement, financial management and 
information technology is crucial, and you have mentioned that. 
This Subcommittee will continue tracking DHS's progress and we 
will do everything that we can to ensure the Department's 
success.
    As the General mentioned, and I think he drew a time line 
here when he said DOD 70 years ago did work on some of this and 
DHS is not quite that old yet. But it is great that we are 
working together to try to change this and improve the quality 
of DHS.
    With that, again, I want to say thank you both so much, and 
my good friend Senator Voinovich. The hearing record will be 
open for 1 week for additional statements or questions other 
Members may have.
    The hearing is adjourned.
    [Whereupon, at 11:03 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5533.001

[GRAPHIC] [TIFF OMITTED] T5533.002

[GRAPHIC] [TIFF OMITTED] T5533.003

[GRAPHIC] [TIFF OMITTED] T5533.004

[GRAPHIC] [TIFF OMITTED] T5533.005

[GRAPHIC] [TIFF OMITTED] T5533.006

[GRAPHIC] [TIFF OMITTED] T5533.007

[GRAPHIC] [TIFF OMITTED] T5533.008

[GRAPHIC] [TIFF OMITTED] T5533.009

[GRAPHIC] [TIFF OMITTED] T5533.010

[GRAPHIC] [TIFF OMITTED] T5533.011

[GRAPHIC] [TIFF OMITTED] T5533.012

[GRAPHIC] [TIFF OMITTED] T5533.013

[GRAPHIC] [TIFF OMITTED] T5533.014

[GRAPHIC] [TIFF OMITTED] T5533.015

[GRAPHIC] [TIFF OMITTED] T5533.016

[GRAPHIC] [TIFF OMITTED] T5533.017

[GRAPHIC] [TIFF OMITTED] T5533.018

[GRAPHIC] [TIFF OMITTED] T5533.019

[GRAPHIC] [TIFF OMITTED] T5533.020

[GRAPHIC] [TIFF OMITTED] T5533.021

[GRAPHIC] [TIFF OMITTED] T5533.022

[GRAPHIC] [TIFF OMITTED] T5533.023

[GRAPHIC] [TIFF OMITTED] T5533.024

[GRAPHIC] [TIFF OMITTED] T5533.025

[GRAPHIC] [TIFF OMITTED] T5533.026

[GRAPHIC] [TIFF OMITTED] T5533.027

[GRAPHIC] [TIFF OMITTED] T5533.028

[GRAPHIC] [TIFF OMITTED] T5533.029

[GRAPHIC] [TIFF OMITTED] T5533.030

[GRAPHIC] [TIFF OMITTED] T5533.031

[GRAPHIC] [TIFF OMITTED] T5533.032

[GRAPHIC] [TIFF OMITTED] T5533.033

[GRAPHIC] [TIFF OMITTED] T5533.034

[GRAPHIC] [TIFF OMITTED] T5533.035

[GRAPHIC] [TIFF OMITTED] T5533.036

[GRAPHIC] [TIFF OMITTED] T5533.037

[GRAPHIC] [TIFF OMITTED] T5533.038

[GRAPHIC] [TIFF OMITTED] T5533.039

[GRAPHIC] [TIFF OMITTED] T5533.040

[GRAPHIC] [TIFF OMITTED] T5533.041

[GRAPHIC] [TIFF OMITTED] T5533.042

[GRAPHIC] [TIFF OMITTED] T5533.043

[GRAPHIC] [TIFF OMITTED] T5533.044

[GRAPHIC] [TIFF OMITTED] T5533.045

[GRAPHIC] [TIFF OMITTED] T5533.046

[GRAPHIC] [TIFF OMITTED] T5533.047

[GRAPHIC] [TIFF OMITTED] T5533.048

[GRAPHIC] [TIFF OMITTED] T5533.049

[GRAPHIC] [TIFF OMITTED] T5533.050

[GRAPHIC] [TIFF OMITTED] T5533.051

[GRAPHIC] [TIFF OMITTED] T5533.052

[GRAPHIC] [TIFF OMITTED] T5533.053

[GRAPHIC] [TIFF OMITTED] T5533.054

[GRAPHIC] [TIFF OMITTED] T5533.055

[GRAPHIC] [TIFF OMITTED] T5533.056

[GRAPHIC] [TIFF OMITTED] T5533.057

[GRAPHIC] [TIFF OMITTED] T5533.058

[GRAPHIC] [TIFF OMITTED] T5533.059

[GRAPHIC] [TIFF OMITTED] T5533.060

[GRAPHIC] [TIFF OMITTED] T5533.061

[GRAPHIC] [TIFF OMITTED] T5533.062

[GRAPHIC] [TIFF OMITTED] T5533.063

[GRAPHIC] [TIFF OMITTED] T5533.064

[GRAPHIC] [TIFF OMITTED] T5533.065

[GRAPHIC] [TIFF OMITTED] T5533.066

[GRAPHIC] [TIFF OMITTED] T5533.067

[GRAPHIC] [TIFF OMITTED] T5533.068

[GRAPHIC] [TIFF OMITTED] T5533.069

[GRAPHIC] [TIFF OMITTED] T5533.070

[GRAPHIC] [TIFF OMITTED] T5533.071

[GRAPHIC] [TIFF OMITTED] T5533.072

[GRAPHIC] [TIFF OMITTED] T5533.073

[GRAPHIC] [TIFF OMITTED] T5533.074

[GRAPHIC] [TIFF OMITTED] T5533.075

[GRAPHIC] [TIFF OMITTED] T5533.076

[GRAPHIC] [TIFF OMITTED] T5533.077

[GRAPHIC] [TIFF OMITTED] T5533.078

[GRAPHIC] [TIFF OMITTED] T5533.079

[GRAPHIC] [TIFF OMITTED] T5533.080

[GRAPHIC] [TIFF OMITTED] T5533.081

[GRAPHIC] [TIFF OMITTED] T5533.082

[GRAPHIC] [TIFF OMITTED] T5533.083

[GRAPHIC] [TIFF OMITTED] T5533.084

[GRAPHIC] [TIFF OMITTED] T5533.085

[GRAPHIC] [TIFF OMITTED] T5533.086

[GRAPHIC] [TIFF OMITTED] T5533.087

[GRAPHIC] [TIFF OMITTED] T5533.088

[GRAPHIC] [TIFF OMITTED] T5533.089

[GRAPHIC] [TIFF OMITTED] T5533.090

[GRAPHIC] [TIFF OMITTED] T5533.091

[GRAPHIC] [TIFF OMITTED] T5533.092

[GRAPHIC] [TIFF OMITTED] T5533.093

[GRAPHIC] [TIFF OMITTED] T5533.094

[GRAPHIC] [TIFF OMITTED] T5533.095

[GRAPHIC] [TIFF OMITTED] T5533.096

[GRAPHIC] [TIFF OMITTED] T5533.097

[GRAPHIC] [TIFF OMITTED] T5533.098

[GRAPHIC] [TIFF OMITTED] T5533.099

[GRAPHIC] [TIFF OMITTED] T5533.100

[GRAPHIC] [TIFF OMITTED] T5533.101

[GRAPHIC] [TIFF OMITTED] T5533.102

[GRAPHIC] [TIFF OMITTED] T5533.103

[GRAPHIC] [TIFF OMITTED] T5533.104

[GRAPHIC] [TIFF OMITTED] T5533.105

[GRAPHIC] [TIFF OMITTED] T5533.106

                                 <all>

</pre></body></html>
